              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Internal Controls Over Methamphetamine
Precursor Chemicals at the Y-12 National
Security Complex and the Oak Ridge
National Laboratory




DOE/IG-0650                              June 2004
   •   For quantities of 55 gallons or less, chemical inventory procedures only required that the
       sites identify whether a chemical was still present, not its actual utilization, so potential
       diversion might not be readily identified.

We further determined that both Y-12 and ORNL procedures prohibit the use of purchase cards
to procure hazardous materials, which would include most of the methamphetamine precursor
chemicals. Emergency situations were the only exception to this prohibition. However, there
were no specific controls in place to prevent a purchase card holder from improperly procuring
hazardous materials.

In addition, while reviewing the policies and procedures applicable to procuring precursor
chemicals, we learned that, contrary to site policy, the ORNL medical staff was using purchase
cards to procure drugs, including narcotics, for site medical needs. Y-12’s medical staff was also
using purchase cards for this purpose; however, Y-12 policy was not clear regarding whether this
was authorized.

The report includes several recommendations to Department management designed to enhance
controls over methamphetamine precursor chemicals.

MANAGEMENT REACTION

Management concurred with our recommendations and identified appropriate corrective actions.
Management’s comments are provided in their entirety in Appendix B of the report.

We found management’s comments to be responsive to our report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Science
    Manager, Y-12 Site Office
    Manager, Oak Ridge Operations Office
    Director, Policy and Internal Controls Management
    Director, Office of Program Liaison and Financial Analysis
INTERNAL CONTROLS OVER METHAMPHETAMINE
PRECURSOR CHEMICALS AT THE Y-12 NATIONAL
SECURITY COMPLEX AND THE OAK RIDGE NATIONAL
LABORATORY




TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objective      1

              Observations and Conclusions    2


              DETAILS OF FINDINGS

              Background                      3

              Awareness                       3

              Chemical Tracking Issues        4

              Purchase Card Procurements      5


              RECOMMENDATIONS                 6


              MANAGEMENT COMMENTS             6


              INSPECTOR COMMENTS              6


              APPENDICES

              A. Scope and Methodology        7

              B. Management Comments          8
Overview

INTRODUCTION    The Tennessee Ninth Judicial Drug Task Force requested support
AND OBJECTIVE   from the Office of Inspector General (OIG) for the Task Force’s
                efforts to address the growing problem of illegal methamphetamine
                production in Tennessee. Specifically, the OIG was asked to
                evaluate the potential for certain chemicals to be stolen from
                Department of Energy (DOE) facilities in Oak Ridge, Tennessee,
                for possible use in the illicit production of methamphetamine. The
                Task Force has been aggressively trying to control the availability
                of methamphetamine precursor chemicals within its area of
                responsibility, which covers counties within the Appalachia-
                Cumberland Plateau region, which is where DOE’s Oak Ridge
                facilities are located. Methamphetamine is recognized as the third
                greatest drug threat in Tennessee and is the most prevalent
                synthetic illegal drug manufactured in the United States.

                The OIG initiated an inspection at two of the Department’s major
                Oak Ridge facilities, the National Nuclear Security Administration
                (NNSA) Y-12 National Security Complex (Y-12) and the Oak
                Ridge National Laboratory (ORNL), to determine whether there
                were adequate internal controls over precursor chemicals that
                could be stolen for use in the illegal production of
                methamphetamine.




Page 1                 Internal Controls Over Methamphetamine Precursor
                       Chemicals at the Y-12 National Security Complex and
                       the Oak Ridge National Laboratory
OBSERVATIONS AND   We did not find any indicators of theft of precursor chemicals
CONCLUSIONS        from Y-12 or ORNL during our inspection, which included a
                   review of a sample of the precursor chemicals at both locations.
                   Also, we determined that the sites were adhering to Department
                   requirements for controlling such chemicals. However, given the
                   existence of precursor chemicals at these sites and the heightened
                   concern that these chemicals could be targeted for theft, we believe
                   that supplementary steps could be taken to reduce the possibility of
                   site chemicals being diverted for the illegal production of
                   methamphetamine. We found the following conditions that we
                   believe management should consider taking actions to address:

                   •   Personnel at the sites generally were not aware that certain
                       chemicals could be the target of diversion for the illegal
                       production of methamphetamine, so no special controls or
                       procedures had been implemented for these chemicals.

                   •   For quantities of 55 gallons or less, chemical inventory
                       procedures only require that the sites identify whether a
                       chemical was still present, not its actual utilization, so potential
                       diversion might not be readily identified.

                   In addition, while reviewing the policies and procedures applicable
                   to procuring precursor chemicals, we learned that, contrary to site
                   policy, the ORNL medical staff is using purchase cards to procure
                   drugs, including narcotics, for site medical needs. Y-12’s medical
                   staff is also using purchase cards for this purpose; however, the site
                   policy is not clear regarding whether this is authorized. Also,
                   although outside the scope of our review, we observed that the
                   Y-12 system for ordering, picking up, and reconciling orders of
                   narcotics lacks checks and balances.

                   We further determined that both Y-12 and ORNL have specific
                   prohibitions against using purchase cards to procure hazardous
                   materials, which would include most of the methamphetamine
                   precursor chemicals, except in emergency situations. However,
                   there are no specific controls in place to prevent a purchase card
                   holder from improperly procuring such hazardous chemicals. To
                   this end, ORNL officials identified instances to us where the policy
                   had been violated.




Page 2                                               Observations and Conclusions
Details of Findings

BACKGROUND            There are a number of precursor chemicals used to produce
                      methamphetamine. We looked at the methods used to purchase,
                      receive, and dispose of such chemicals at Y-12 and ORNL. We
                      narrowed our review to precursor chemicals that are not easily
                      obtained or that are tedious to gather. For example, we included
                      red phosphorous because the method commonly used to acquire it
                      is to scrape it from the heads of matches, which is tedious and time
                      consuming; hence, bulk holdings of this chemical can be an
                      attractive target for theft. Other chemicals included in our review
                      were potassium metal, anhydrous ammonia, pseudoephedrine,
                      iodine, ether, and lithium metal.

                      Y-12 and ORNL are surrounded by perimeter fences, and access to
                      the facilities requires some type of identification badge or
                      proximity card. Over 8,000 Federal and contractor personnel have
                      access to these facilities each day.

                      In discussions with an area law enforcement official, we were told
                      that there have been no identified instances to date where
                      employees from Y-12 or ORNL have been arrested in connection
                      with illegal methamphetamine.

AWARENESS             We determined that personnel at the sites generally were not aware
                      that certain chemicals could be the target of diversion for the
                      illegal production of methamphetamine. For instance, the
                      individuals responsible for maintaining the chemical inventories at
                      Y-12 and ORNL said that they were unaware that certain
                      chemicals could be used in the production of methamphetamine.
                      Therefore, no special controls or procedures had been implemented
                      for these chemicals.

                      For example, during our inspection we physically reviewed
                      controls at a laboratory building at ORNL. Over 1,000 employees
                      have access to the building, and most of the laboratories are kept
                      unlocked due to safety concerns. We found a sealed container
                      labeled “red phosphorous” in an unlocked room. The container
                      held 1.5 pounds of red phosphorous and was placed in the room
                      awaiting disposal. We explained to an ORNL official that red
                      phosphorous could be a target for diversion and use in
                      manufacturing methamphetamine. When we returned to the
                      laboratory over two months later, we found that the red
                      phosphorous remained unsecured.




Page 3                                                              Details of Findings
                  According to an official from the Anderson County Sheriff’s
                  Office Drug Task Force, red phosphorous is very important to the
                  “drug cook” and is quite difficult to obtain. He added that the
                  amount the OIG discovered at ORNL would be extremely valuable
                  on the “street” and, as such, should be closely controlled. We were
                  advised by another law enforcement official that the local street
                  value for ready-to-use red phosphorous is approximately $90 per
                  gram. Therefore, the estimated local street value of the 1.5 pounds
                  of red phosphorous awaiting disposal is over $61,000.

CHEMICAL          For quantities of 55 gallons or less, chemical inventory procedures
TRACKING ISSUES   at Y-12 and ORNL only require that the sites track the presence of a
                  chemical after initial receipt, not its actual utilization. The control
                  requirement is to maintain records showing that the chemical is on-
                  hand or gone. When the custodian notes that the chemical has been
                  “consumed,” it is generally presumed that it was used for legitimate
                  purposes, so potential diversion might not be readily identified. We
                  believe these controls could be strengthened.

                  For example, we observed that five containers (four 5-liter
                  containers and one 40-liter container) of anhydrous ammonia were
                  stored on a loading dock at Y-12. Anhydrous ammonia is a
                  precursor chemical with a significant street value. Officials could
                  provide no record of how much of the anhydrous ammonia had
                  been used or remained in inventory. In the case of the 40-liter
                  container, we were informed that the employee who had ordered it
                  left for another position 12 years ago, and the container had
                  remained on the loading dock since that time.

                  According to the official from the Anderson County Sheriff’s Office
                  Drug Task Force, most of the anhydrous ammonia found by his
                  officers in connection with the illegal production of
                  methamphetamine had been stolen. He said that because possession
                  of anhydrous ammonia without a permit is illegal, it is more difficult
                  to obtain and, therefore, is a major target for theft. The official added
                  that the chemical’s street value is currently $250 per quart.

                  During our fieldwork, an official with the Y-12 Hazardous
                  Materials Management Office advised us that, as a consequence of
                  the issues we raised, a management assessment is now planned for
                  the fourth quarter of fiscal year 2004 to review inventories of
                  anhydrous ammonia and phosphorus. The official also indicated
                  that as a result of the now limited commercial availability of
                  iodine, this precursor chemical will be an additional item
                  scrutinized in the future.



Page 4                                                            Details of Findings
PURCHASE CARD   As part of our inspection, we reviewed the policies and procedures
PROCUREMENTS    applicable to purchasing precursor chemicals. Since the precursor
                chemical pseudoephedrine is a drug, our review included the
                policies and procedures applicable to procuring drugs. We were
                informed by the ORNL and the Y-12 medical staffs that most of
                the drugs they utilize, including narcotics, are ordered using
                company purchase cards. We determined that the ORNL Small
                Purchase Card Program Policies and Procedures Manual states that
                drugs and controlled substances cannot be procured with a
                purchase card. The Y-12 Small Purchase Card Manual states that
                purchase cards are only to be used to procure “off-the-shelf
                commercial items.” ORNL officials could not provide
                documentation, such as a waiver, supporting the use of purchase
                cards to procure drugs. For Y-12, “off-the-shelf commercial
                items” was not defined, so it was unclear whether the medical staff
                was authorized to procure drugs, including narcotics, using
                purchase cards. Subsequent to our raising this issue, we were
                advised that the Y-12 and ORNL purchase card managers are in
                the process of addressing these situations.

                Although not directly related to precursor chemicals, we observed
                that one person is responsible for placing narcotic orders for the
                Y-12 medical clinic, as well as picking up and reconciling the
                orders. We found no indicators of abuse; however, we believe that
                the process could be strengthened by improving checks and
                balances. We discussed our concern with the Y-12 purchase card
                manager and were advised that Y-12 would evaluate whether there
                should be a separation of duties.

                We also determined that both Y-12 and ORNL have specific
                prohibitions against using purchase cards to procure hazardous
                materials, which would include most of the methamphetamine
                precursor chemicals, except in emergency situations. However,
                there are no specific controls in place to prevent a purchase card
                holder from improperly procuring such hazardous chemicals. The
                onus is primarily on the purchase card holder’s manager, who may
                not be familiar with methamphetamine precursor chemicals, to
                ensure purchases are legitimate. During our review, officials
                identified to us three instances at ORNL where hazardous
                materials were procured using a purchase card when no emergency
                existed. Although these instances did not involve precursor
                chemicals, they point to the ease with which a purchase card can
                be used to procure such materials.




Page 5                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Managers, Y-12 Site Office and Oak
                  Ridge Operations Office:

                  1. Enhance awareness among Federal and contractor site
                     personnel regarding methamphetamine precursor chemicals;

                  2. Consider implementing additional internal controls for
                     methamphetamine precursor chemicals; and

                  3. Determine whether it is appropriate for purchase cards to be
                     used to procure drugs, including narcotics. Also, determine
                     whether additional actions are appropriate to limit the purchase
                     of precursor chemicals with purchase cards.

                  We recommend that the Manager, Y-12 Site Office:

                  4. Consider implementing additional checks and balances in the
                     process for purchasing narcotics.

MANAGEMENT        Management concurred with all the recommendations. We have
COMMENTS          included management’s comments in their entirety as
                  Appendix B.

INSPECTOR         Management’s comments were responsive to the
COMMENTS          recommendations.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We initiated an inspection to determine whether Y-12 and ORNL
METHODOLOGY   have adequate internal controls over selected chemicals that might
              be the target of diversion for the illegal production of
              methamphetamine. We identified and reviewed applicable Federal
              and DOE regulations and conducted a limited physical inspection
              of site locations containing selected chemicals. We interviewed
              DOE and contractor officials and reviewed key documents
              applicable to the inspection. We coordinated with officials from
              the Tennessee Ninth Judicial Drug Task Force, Kingston, TN, and
              the Anderson County Sheriff’s Department Drug Task Force,
              Clinton, TN. The OIG Office of Investigations facilitated initial
              coordination with the Tennessee Ninth Judicial Drug Task Force.
              We reviewed a random sampling of the selected chemicals
              identified through the Hazardous Materials Information System at
              Y-12 and ORNL. For inventory in stock, we looked at such areas
              as ease of access to the chemical and ease of removal from the site.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed both Y-12’s and ORNL’s performance
              measurement processes as they relate to management controls over
              hazardous chemicals.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                                         Department of Energy
                                  National Nuclear Security Administration
                                          Washington, DC 20585

                                              MAY 07 2004




         MEMORANDUM FOR                 Alfred K. Walter
                                        Acting Assistant Inspector General
                                         for Inspections and Special Inquiries

         FROM:                          Michael C. Kane
                                        Associate Administrator
                                         for Management and Administration

         SUBJECT:                       Comments to Draft Inspection Report on Precursor
                                        Chemicals at Y-12


         The National Nuclear Security Administration (NNSA) appreciates the
         opportunity to have reviewed the draft inspection report, “Internal Controls Over
         Methamphetamine Precursor Chemicals at the Y-12 National Security Complex
         and the Oak Ridge National Laboratory.” NNSA is aware that this draft report
         was submitted to the Manager, Oak Ridge Operations Office for their comments.
         Therefore these comments are NNSA’s alone.

         We understand that the inspection was conducted at the request of the Tennessee
         Ninth Judicial Drug Task Force to determine whether there were adequate internal
         controls over precursor chemicals that could be stolen for the illegal production of
         methamphetamine. We appreciate the Inspector General (IG) acknowledging that
         there is no indication of theft of precursor chemicals and that we are adhering to
         the requirements for controlling such chemicals. We agree that we can always do
         better, therefore NNSA provided a copy of the draft inspection report to its
         complex as a “Lessons Learned” document.

         Our specific comments to the recommendations follow:

         Recommendation 1 – related to enhanced awareness of site personnel regarding
         the chemicals

                 Concur

                 Individuals in the Hazardous Materials Management Program have been
                 made aware of the precursor materials that are not readily available
                 through retail outlets that may be targets for a diversion. We will be




Page 8                                                                       Management Comments
       prudent, however, in providing broader knowledge to site personnel other than those that
       really require that knowledge.

Recommendation 2 - related to the implementation of additional controls for precursor
chemicals.

       Concur

       The site contractor’s environmental, safety and health office will evaluate the feasibility
       of implementing additional internal controls for the subject precursor materials. This
       evaluation will be completed by June 30, 2004. As noted in the report, a Management
       Assessment has been scheduled for the environmental, safety and health, medical
       department, and procurement office to identify the precursor chemicals and then to set
       limits and controls. These controls will be implemented by June 30.

Recommendation 3 - related to the appropriateness of purchase cards being used to procure
drugs.

       Concur

       The BWXT Y-12 Medical Department was advised in 1997 by Procurement to use the
       Small Purchase Card (SPC) system to purchase small quantities of medication. The IG
       report, page 2, states "...the site policy is not clear regarding whether this is authorized."
       The Small Purchase Card Manual Y30-512INS) states, "the Small Purchase Card is a
       preferred method over small cash purchases of procurements $2,500 or less..." The Small
       Purchase Card is not be used for Hazardous or Radioactive Materials. Hazardous
       Materials are listed in Appendix A of the procedure. There is no mention of medications
       on this list. All purchases by a cardholder are monitored monthly by an Approving
       Manager.

       BWXT Y-12 has taken action to block the credit card code for medical supplies for all
       cardholders except Y-12 Medical personnel. In addition, the next revision of the
       procedure for the Y-12 credit card program will specify that medical supplies can only be
       purchased by Y-12 Medical cardholders. In conjunction with the Medical Department,
       Procurement will establish quantities, limits, and controls for precursor chemicals
       including narcotics by June 30, 2004. Procurement will then revise the Small Purchase-
       Card procedure to implement the additional actions.




Page 9                                                                  Management Comments
Recommendation 4 - related to the implementation of checks and balances in the process for
purchasing narcotics.

       Concur

       Y-12 considers the following actions as responsive to the recommendation. (1) A
       designated staff nurse is responsible for placing an order for narcotics either through the
       designated medical supplies organization or a local pharmacy after being approved by the
       Assistant Medical Director for Healthcare Administration; (2) A designated staff nurse
       will pick up the narcotic(s) from the local pharmacy or will receive the narcotic(s) via
       direct shipment form the designated medical supplies organization. The designated staff
       nurse, along with the Nursing Supervisor (Two Person Rule), confirms the order and
       places it in the narcotics cabinet; (3) a second nurse conducts a narcotic inventory daily
       each morning; (4) the Nursing Supervisor and Medical Director perform a mandated
       audit of narcotics annually confirming the number and type of narcotics ordered,
       received, and dispensed for the given year; and, (5) disposal of narcotics is witnessed and
       documented by federal personnel.

Should you have any questions related to this response, please contact Richard Speidel, Director,
Policy and Internal Controls Management. He may be contacted on 202-586-5009.


cc:    William J. Brumley, Manager, Y-12 Site Office
       Robert Braden, Senior Procurement Executive




Page 10                                                              Management Comments
Page 11   Management Comments
                                                                                  Attachment

            OAK RIDGE OPERATIONS OFFICE COMMENTS
                  IG DRAFT INSPECTION REPORT
     “INTERNAL CONTROLS OVER METHAMPHETAMINE PRECURSOR
  CHEMICALS AT THE Y-12 NATIONAL SECURITY COMPLEX AND THE
                OAK RIDGE NATIONAL LABORATORY”


  Oak Ridge Operations Office concurs in the report recommendations and
  is supportive of efforts to reduce the illegal production of methamphetamine.

  UT-Battelle, the Oak Ridge National Laboratory (ORNL) contractor, will take the following
  actions as a result of this inspection:

  1. Initiate an awareness campaign for ORNL personnel on the methamphetamine problem
     in our community and the identification of precursor chemicals available at the
     laboratory. This will be accomplished through the Safety 1st program with an outside
     speaker from the Roane County Drug Task Force.

  2. Review current laboratory purchasing controls for procuring precursor chemicals to
     determine if additional information or controls are necessary.

  3. Review current laboratory inventory controls for precursor chemicals to determine if
     additional inventory and management oversight is necessary for this category of
     chemicals.

  4. Consider using a waste management tracking system to maintain control of precursor
     chemicals that are moved from a product condition under the hazardous chemical
     inventory system to waste status.

  These actions are targeted to be completed by December 31, 2004.




Page 12                                                            Management Comments
                                                                    IG Report No. DOE/IG-0650

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
